 DEPARTMENT OF HOMELAND SECURITY

 Ofﬁce of Inspector General



     FY 2003 Mission Performance

      United States Coast Guard 





            Ofﬁce of Audits


OIG-04-43          September 2004
                                                                      Ofﬁce of Inspector General

                                                                      U.S. Department of Homeland Security
                                                                      Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, investigative, and special reports
prepared by the OIG as part of its DHS oversight responsibility to identify and prevent fraud,
waste, abuse, and mismanagement.

This report assesses the strengths and weaknesses of the program or operation under review. It
is based on interviews with employees and ofﬁcials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG,
and have been discussed in draft with those responsible for implementation. It is my hope that
this report will result in more effective, efﬁcient, and economical operations. I express my
appreciation to all of those who contributed to the preparation of this report.




                                              Clark Kent Ervin
                                              Inspector General
                                                                                                                            Contents


Introduction.......................................................................................................................................... 3


     Results in Brief .............................................................................................................................. 5


     Background .................................................................................................................................... 6


     Barriers to Sustained or Improved Mission Performance

     in FY 2004 and Beyond .............................................................................................................. 10


           Barrier 1: Performance Management System Incomplete .................................................... 11


           Barrier 2: Growing Workload and Continued High Operating Tempo ................................. 14


           Barrier 3: Deteriorating Fleet Readiness ............................................................................. 16



Appendices

     Appendix A:             Coast Guard Missions ........................................................................................          19

     Appendix B:             Purpose, Scope, and Methodology .....................................................................                  22

     Appendix C:             Major Contributors To This Report ....................................................................                 24

     Appendix D:             Report Distribution.............................................................................................       25



Abbreviations

     AOPS                              Abstract of Operations

     CBP                               U.S. Customs and Border Protection

     Committee                         Senate Committee on Appropriations

     Coast Guard                       United States Coast Guard

     D.C.                              District of Columbia

     DHS                               Department of Homeland Security

     DOD                               Department of Defense

     DOT                               Department of Transportation     





                                FY 2003 Mission Performance United States Coast Guard                                                               Page 1
Contents


   EPA      Environmental Protection Agency
   EEZ      Exclusive Economic Zone
   FL       State of Florida
   FY       Fiscal Year
   GAO      United States General Accounting Ofﬁce
   JRC      Joint Requirements Council
   MA       Commonwealth of Massachusetts
   MTSA     Maritime Transportation Security Act of 2002
   OIG      Ofﬁce of Inspector General
   OMB      Ofﬁce of Management and Budget
   PART     Program Assessment Rating Tool
   PWCS     Port, Waterways, and Coastal Security
   SAR      Search and Rescue
   TACLET   Tactical Law Enforcement Team
   U.S.     United States of America
   VA       Commonwealth of Virginia
   WA       State of Washington




Page 2                FY 2003 Mission Performance United States Coast Guard
OIG

Department of Homeland Security
Ofﬁce of Inspector General


    Introduction
                                  This report presents the results of the Ofﬁce of Inspector General’s (OIG) review
                                  of the United States Coast Guard’s (Coast Guard) mission performance for ﬁscal
                                  year (FY) 2003. This report responds to the Homeland Security Act of 2002
                                  mandate that the OIG assess annually the performance by the Coast Guard of all
                                  of its missions. The objectives of our review were to determine how the level of
                                  effort directed toward each mission has changed since September 11, 2001, and to
                                  identify the consequences resulting from the change in mission emphasis.

                                  The Coast Guard is a multi-mission agency with a longstanding federal leadership
                                  role in protecting life and property at sea, such as directing search and rescue
                                  operations for mariners in distress and responding to major oil spills. The Coast
                                  Guard is responsible, too, for interdicting drugs and migrants. Furthermore, the
                                  Coast Guard is a military service responsible for protecting the U.S. maritime
                                  domain of ports, waterways, coastal zones, and the marine transportation
                                  system so that terrorist do not use or exploit it as a means to attack U.S.
                                  territory, population, and critical infrastructures. The Coast Guard increased
                                  emphasis on its ports, waterways, and coastal security (PWCS) mission after the
                                  September 11th terrorist attacks.

                                  The Homeland Security Act of 2002 provisions that drive our annual assessments
                                  focus on preserving the Coast Guard’s mission performance.1 Those provisions
                                  restrict the Department of Homeland Security (DHS) from reducing the Coast
                                  Guard’s missions or its capabilities to perform them, while ensuring that the
                                  Coast Guard remains intact at the newly created department. Additionally,
                                  the provisions require the OIG to assess and examine non-homeland security
                                  missions, which are identiﬁed as: marine safety; search and rescue; aids
                                  to navigation; living marine resources (ﬁsheries law enforcement); marine


    1
        Homeland Security Act of 2002, Public Law 107-296, Section 888, Preserving Coast Guard Mission Performance, November 25, 2002.




                                 FY 2003 Mission Performance United States Coast Guard                                           Page 3
                           environmental protection; and ice operations. These missions, and the
                           homeland security missions such as, ports, waterways, and coastal security; drug
                           interdiction; migrant interdiction; defense readiness; and other law enforcement
                           are described in Appendix A of this report.

                           Four months prior to the enactment of the Homeland Security Act, the Senate
                           Committee on Appropriations (Committee) noted that the Coast Guard acted
                           with extraordinary professionalism and heroism following the terrorist attacks
                           of September 11th. 2 The Committee noted that historically the Coast Guard
                           has shifted its mission emphasis rapidly, but the extent of the shift to domestic
                           homeland security that followed the events of September 11th was unprecedented
                           in its history. However, at the same time, the Committee noted concerns about
                           the Coast Guard’s ability to achieve mission balance and adequately address its
                           other critical missions, including search and rescue, drug and migrant interdiction,
                           aids to navigation, and ensuring the safety and integrity of domestic ﬁshing
                           grounds. The Committee mentioned information provided by the Department of
                           Transportation (DOT) OIG that showed a surge in port security efforts, along with
                           reduced efforts in other missions compared to pre-September 11th levels.

                           We conducted the audit between April 2003 and February 2004 at the Coast
                           Guard headquarters and selected ﬁeld locations. Our review assessed the Coast
                           Guard’s level of effort and performance of homeland security missions, as well as
                           non-homeland security missions, for the period covering October 1, 2000, through
                           September 30, 2003. We also identiﬁed barriers to sustaining or improving the
                           performance of those missions in future periods. See Appendix B for speciﬁc
                           information on our audit scope and methodology.
                           In June 2003, the United States Government Accountability Ofﬁce (GAO)3
                           initiated a review of the Coast Guard’s changed level of effort for its homeland
                           security and non-homeland security missions and the effect this has had on
                           mission performance. We coordinated with the GAO team. The GAO’s
                           conclusions are discussed on pages 8 and 9 of this report.
                           Since the GAO recently addressed how well the Coast Guard performed its
                           missions in FY 2003 and whether the Coast Guard restored its non-homeland
                           security missions to their pre-September 11th levels,4 we focused our report on the
                           barriers to improved or sustained mission performance in FY 2004 and beyond.

2
  Senate Report 107–224, Department Of Transportation and Related Agencies Appropriations Bill, 2003, July 26, 2002.

3
  Effective July 7, 2004, the GAO changed its name from the General Accounting Ofﬁce.

4
  GAO Report: Relationship Between Resources Used and Results Achieved Needs to Be Clearer, report number GAO-04-432, March 22, 

2004, and GAO Testimony: Key Management and Budget Challenges for Fiscal Year 2005 and Beyond, report number GAO-04-636T, 

April 7, 2004.




Page 4                                       FY 2003 Mission Performance United States Coast Guard
Results in Brief

                The Coast Guard faces three major barriers to improving or sustaining its mission
                performance in FY 2004 and beyond:

                     1. 	 The lack of a comprehensive and fully deﬁned performance management
                          system.

                     2. 	 The growing workload and demand for experienced and trained Coast
                          Guard personnel.

                     3. 	 The deteriorating readiness condition of its aged cutter and aircraft ﬂeet.

                The lack of a comprehensive and fully deﬁned performance management system
                impedes the Coast Guard’s ability to gauge its performance, allocate resources
                effectively, and target areas for improved performance. The Coast Guard has
                yet to deﬁne comprehensively a management system that includes the inputs,
                outputs, and outcomes of its missions, which are needed to gauge and improve
                performance. For example, for search and rescue, the number of mariners in
                distress saved is a good indicator of outcome; however, resource hours under-
                represent the effort put into this mission by omitting the many hours of watch
                standing at stations. Without more complete information, the Coast Guard has
                limited ability to identify and target cost effective improvements to mission
                performance.

                The workload demands on the Coast Guard will continue to increase as it
                implements the Maritime Transportation Security Act of 2002 (MTSA). Under
                MTSA, the Coast Guard must conduct risk assessments of all vessels and facilities
                on or near the water; develop national and area maritime transportation security
                plans; and approve port, facility, and vessel security plans. This complex work
                requires experienced and trained personnel, presenting a major challenge for the
                Coast Guard, which has in recent years suffered from declining experience levels
                among its personnel. Insofar as the Coast Guard relies on experienced senior
                personnel to coach and train junior personnel and new recruits on the job, mission
                performance is at risk.

                In addition to implementing MTSA, growing homeland security demands, such as
                added PWCS patrols, result in a continued high operating tempo. Sustaining this
                high operating tempo will be a major challenge for Coast Guard personnel and
                will tax its infrastructure, especially its aged cutter and aircraft ﬂeet. The Coast
                Guard reported that mission sustainment is at risk due to cutters and aircraft that



                FY 2003 Mission Performance United States Coast Guard 	                          Page 5
                              are aging, technologically obsolete, and require replacement and modernization.
                              Currently, the Coast Guard is experiencing serious cracking in the hulls of the 110
                              foot cutters and engine power loss on the HH-65 Dolphin helicopters, resulting in
                              operating restrictions. These problems adversely affect the Coast Guard’s mission
                              readiness and ultimately mission performance.

                              In light of the outstanding recommendations made by the GAO for improving
                              the Coast Guard’s performance management system, and the ongoing Coast
                              Guard efforts to improve its performance management system, we are making no
                              recommendations in this report on performance management. However, to deal
                              with its readiness problems, we are recommending that the department and the
                              Coast Guard expedite the review and approval of the Coast Guard’s proposals to
                              update the Integrated Deepwater System requirements and acquisition program
                              baseline to ensure that these needs are addressed in the formulation of the FY
                              2006 budget request and the Future Years Homeland Security Plan for 2007-2011.

                              On July 29, 2004, we sent a draft copy of this report to the Coast Guard and DHS,
                              asking for a response within 30 days. However, as of September 30, 2004, we
                              have not received responses. Therefore, we are issuing the ﬁnal report without the
                              beneﬁt of the Coast Guard’s and DHS’ responses.



Background
                              The terrorist attacks of September 11th changed the nation’s priorities and affected
                              the scope of activities for many federal agencies. This is especially true of the
                              Coast Guard. The attacks prompted the nation to evaluate its vulnerability to
                              terrorism, and the evaluation focused considerable attention on the nation’s vast
                              and sprawling network of ports and waterways. Resulting legislation added to,
                              rather than subtracted from, the Coast Guard’s many mission responsibilities. The
                              effect of these changes on the Coast Guard, and how to manage them, continues
                              to be a matter of intense congressional interest.

                              Coast Guard’s Many Missions

                              Notwithstanding this increased security focus, Congress enacted the Homeland
                              Security Act of 2002, which explicitly focused on preserving the Coast Guard’s
                              mission performance.5 Provisions of the law restrict the DHS from reducing the

5
    Homeland Security Act of 2002, Public Law 107-296, Section 888, Preserving Coast Guard Mission Performance, November 25, 2002.



Page 6                                          FY 2003 Mission Performance United States Coast Guard
Coast Guard’s missions or its capabilities to perform them, while ensuring that
the Coast Guard remains intact at the department. Congress identiﬁed the Coast
Guard’s major missions and designated each as either a “homeland security”
mission or a “non-homeland security” mission. Homeland security missions
include:

Ports, Waterways, and Coastal Security: Conducting harbor patrols, vulnerability
assessments, and other security efforts to prevent or minimize damage from
maritime terrorist attacks.

Drug Interdiction: Enforcing applicable laws and treaties by conducting patrols
to intercept drug smugglers to reduce the ﬂow of illegal drugs into the country by
sea.

Migrant Interdiction: Enforcing applicable laws and treaties by conducting
patrols to intercept at sea and eliminate the ﬂow of undocumented migrants
entering the U.S. via marine routes.

Defense Readiness: Maintaining military readiness and capabilities to assist and
support the U.S. Navy.

Other Law Enforcement: Enforcing laws and treaties not pertaining to drugs,
migrants, or domestic ﬁsheries, which are categorized separately. It includes
enforcement activities pertaining to boating while intoxicated, hijacking or
stealing vessels, and arms smuggling. The Coast Guard recently began reporting
its mission activities for protecting the Exclusive Economic Zone (EEZ) from
foreign ﬁshermen under “Other Law Enforcement” as a homeland security
mission.

Non-homeland security mission operations include:

Marine Safety: Inspecting vessels for compliance with regulations to improve
safety and eliminate fatalities and injuries for merchant mariners, vessel
passengers, and recreational boaters.

Search and Rescue: Responding to distress calls to save lives and property in
peril.




FY 2003 Mission Performance United States Coast Guard                        Page 7
                           Aids to Navigation: Building and maintaining a network of manned and
                           unmanned aids to navigation, such as buoys.

                           Living Marine Resources: Enforcing applicable laws and treaties to protect U.S.
                           ﬁshing grounds by conducting patrols and inspecting domestic ﬁshing ﬂeets. The
                           Coast Guard recently changed reporting and budgeting for its mission activities
                           for protecting the EEZ from foreign ﬁshermen from “Living Marine Resources”
                           to “Other Law Enforcement.”

                           Marine Environmental Protection: Responding to incident reports to minimize
                           the adverse effects of marine pollution, such as oil and other hazardous materials.

                           Ice Operations: Breaking polar ice, as scheduled, to facilitate movement of
                           critical goods and personnel to research stations, and breaking winter ice, as
                           needed, in domestic ports and waterways to facilitate year-round commerce.

                           To perform its many missions, the Coast Guard had about 44,500 full-time
                           positions, primarily military, at the end of FY 2003. This represents a 3.6 %
                           increase from the FY 2002 level. The Coast Guard utilizes a wide range of
                           aircraft and vessels, including small boats used near shore and deepwater cutters,
                           i.e., vessels 65 feet or greater in length. The Coast Guard ﬂeet consists of about
                           200 cutters and patrol boats, about 1,600 small boats, and 189 aircraft (52 ﬁxed
                           wing and 137 helicopters). The Coast Guard operates about 224 stations and
                           command centers along the nation’s coasts and waterways. In addition, the Coast
                           Guard has about 8,000 reservists and is actively supported and assisted by the
                           36,000 volunteers of the Coast Guard Auxiliary.

                           Related GAO Reviews

                           The GAO recently reported on how well the Coast Guard performed its missions
                           in FY 2003 and whether the Coast Guard restored its non-homeland security
                           missions to their pre-September 11th levels.6 GAO concluded that during
                           FY 2003, resource hours for most homeland security missions were up, while
                           most non-homeland security mission hours were below pre-September 11th levels,
                           even though the Coast Guard experienced a 32 % budget increase and a 9 %
                           increase in personnel since September 11th. For example, resource hours for the
                           living marine resources and search and rescue missions declined 26 % and 22 %,

6
  GAO Report: Relationship Between Resources Used and Results Achieved Needs to Be Clearer, report number GAO-04-432, March 22,
2004, and GAO Testimony: Key Management and Budget Challenges for Fiscal Year 2005 and Beyond, report number GAO-04-636T,
April 7, 2004.




Page 8                                       FY 2003 Mission Performance United States Coast Guard
                        respectively. Conversely, resource hours for PWCS were up more than twelve-
                        fold since pre-September 11th.

                        GAO further reported that the Coast Guard’s FY 2003 performance results did not
                        mirror the downward trends in resource use for non-homeland security missions,
                        but instead program results were generally stable or improved and performance
                        targets were generally met. GAO noted that sufﬁcient data were available for
                        only seven of Coast Guard’s eleven programs. Therefore, GAO did not fully
                        analyze performance for the marine safety, marine environmental protection, drug
                        interdiction, and PWCS missions. The Coast Guard met or exceeded performance
                        goals for ﬁve missions: search and rescue, foreign ﬁsh enforcement, aids to
                        navigation, living marine resources, and ice operations missions. However, the
                        Coast Guard did not meet performance goals for migrant interdiction and defense
                        readiness.

                        GAO also reported that Coast Guard ofﬁcials attributed achieving performance
                        goals with reduced resource hours to other factors affecting mission performance,
                        such as increased operating efﬁciencies and unexpected events. The Coast Guard
                        implemented strategies such as using new technology, better operational tactics,
                        improved intelligence, and stronger partnerships with other federal, state, and
                        local agencies. For example, in the City of New York, the Coast Guard works
                        with the New York Police Department with respect to joint training and ﬁrst
                        responder exercises, as well as sharing communication, intelligence, and assets.
                        However, the Coast Guard has limited information for assessing the impact of the
                        above factors on performance results.

                        GAO repeatedly reported deﬁciencies with the Coast Guard’s performance
                        management system, calling for a strategy for balancing missions, better
                        performance measures, management information, and program evaluation. GAO
                        made ﬁve recommendations for improving the Coast Guard’s performance
                        management system.7 Speciﬁcally, these recommendations included:
                         (1) Developing a long-term strategic plan for balancing resources among
                             missions;
                         (2) Developing a useful reporting system for Congress that includes input,
                             output, and outcome measures;



7
 GAO Report: Strategy Needed for Setting and Monitoring Levels of Effort for All Missions, report number GAO-03-155,
November 2002, and GAO Report: Relationship Between Resources Used and Results Achieved Needs to Be Clearer, report
number GAO-04-432, March 2004.



                        FY 2003 Mission Performance United States Coast Guard                                 Page 9
              (3) Developing an effective way to share information on partnership efforts
                  systematically and to re-examine past recommendations for operational
                  efﬁciencies;
              (4) Setting a time frame for plans to implement a system to account for program
                  resources accurately; and
              (5) Developing a strategy for identifying and assessing factors affecting program
                  performance.
              While the Coast Guard agreed to these recommendations and is drafting a
              strategic plan or blueprint to address them, the Coast Guard has not set a
              timeframe for its completion, according to the GAO.



Barriers To Sustained Or Improved Mission Performance
in FY 2004 and Beyond
              The Coast Guard faces three major barriers to improving or sustaining its mission
              performance in FY 2004 and beyond:

                 1. 	 The lack of a comprehensive and fully deﬁned performance management
                      system.

                 2. 	 The growing workload and demand for experienced and trained Coast
                      Guard personnel.

                 3. 	 The deteriorating readiness condition of its aged cutter and aircraft ﬂeet.

              The ability of the Coast Guard to gauge its performance, allocate resources
              effectively, and target areas for improved performance is impeded by its lack
              of complete management information. However, the Coast Guard faces more
              urgent challenges to sustain or improve mission performance in FY 2004. These
              major challenges include meeting the MTSA implementation requirements, which
              not only add workload, but also stretch the growing demands for trained Coast
              Guard personnel. In addition, these personnel readiness difﬁculties are matched
              by materiel readiness problems, as high operating tempos wear down the Coast
              Guard’s aged cutter and aircraft ﬂeet assets.




Page 10	                    FY 2003 Mission Performance United States Coast Guard
Barrier 1: Performance Management System Incomplete

     The lack of a comprehensive and fully deﬁned performance management system
     impedes the Coast Guard’s ability to gauge its performance, allocate resources
     effectively, and target areas for improved performance. The Coast Guard has
     yet to deﬁne comprehensively a management system that includes the inputs,
     outputs, and outcomes of its missions, which are needed to gauge and improve its
     performance. However, the Coast Guard has begun development of a risk based
     performance management system. It is aimed at identifying the impact of changes
     in Coast Guard activities in terms of risk and, thereby, helping the Coast Guard to
     manage its resources more effectively and improve overall performance.

     Understanding Inputs and Matching Costs

     The Coast Guard does not have a basis for measuring and matching inputs to
     mission performance and, therefore, has relied on resource hours to build and
     justify budgets and allocate costs to missions. However, resource hours indicate
     only part of the effort involved in accomplishing the Coast Guard’s missions.
     The resource hours that the Coast Guard reports are based on its Abstract of
     Operations (AOPS) management information system, which logs the hours that
     Coast Guard major assets--cutters, boats, and aircraft--are being used. AOPS does
     not include partners’ efforts or the work of Coast Guard personnel that does not
     involve such assets. The resource hours of approximately 23 % of Coast Guard
     personnel are not entered in AOPS because their efforts do not require the use of
     the Coast Guard boats, cutters, or aircraft.

     The effect of this unaccounted for effort on performance varies among missions.
     For example, the Coast Guard’s inputs to performance of some major safety and
     crisis response missions are not measured accurately by AOPS because they are
     performed substantially ashore. For example:

             The GAO noted that Coast Guard’s marine safety and marine
             environmental protection missions are primarily a shore based effort not
             reﬂected in AOPS.

             Additionally, search and rescue (SAR) mission efforts are understated.
             The Coast Guard reported about 62,000 resource hours for SAR in
             FY 2003, which understated the effort by omitting the many hours of




    FY 2003 Mission Performance United States Coast Guard                       Page 11
                 watch standing. We estimate Coast Guard stations and command centers
                 spent over 1.5 million hours standing watches that were focused on
                 listening for distress calls. These resource hours should be considered in
                 gauging the effort the Coast Guard puts into the SAR mission.

                 Furthermore, the Coast Guard Auxiliary’s hours spent searching for
                 mariners in distress under the direction of the Coast Guard SAR
                 Coordinator are not counted.

          Without more complete information, the Coast Guard has limited ability to
          identify and target cost effective improvements to the performance of these
          missions. For example, would greater maritime domain awareness allow the
          Coast Guard to deploy assets less for searching and more for affecting the rescue?
          Changing the nature of SAR operations from “look for” to “go get” would
          obviously be more effective and cost effective. However, lack of data undermines
          the Coast Guard’s ability to estimate and evaluate trade-offs in information
          technology investments needed to improve the Coast Guard’s maritime domain
          awareness, versus continued labor and capital-intensive deployments of cutters
          and aircraft.

          Additional signiﬁcant Coast Guard and partnership efforts are not accounted for,
          even though the results of these efforts are reﬂected in performance output and
          outcome measures and are key to accomplishing the Coast Guard’s missions. For
          example, the Coast Guard has several law enforcement detachments on board
          U.S. Navy and other allied Navy vessels in support of the drug interdiction effort;
          however, these mission hours are not being captured in AOPS.

          Further, the manner in which the Coast Guard accounts for the resources that
          are dedicated to its law enforcement missions is ﬂawed. While the percentage
          of resource hours reported for each mission is used to assess the Coast Guard’s
          mission balance and justify its budget requests, resource hours are not always a
          reliable indicator of the Coast Guard’s true mission emphasis. The hours an asset
          is used are counted as “resource” hours. A resource hour for an inﬂatable small
          boat, a high-endurance cutter, a helicopter, and a jet are all counted the same.

          Therefore, resource hour statistics do not reﬂect the Coast Guard’s investment in
          capital and operating costs for performing missions. For example, resource hours
          alone do not indicate the Coast Guard’s relative emphasis on its counter drug
          mission. From FY 2001 to FY 2003, the Coast Guard reported that the percentage
          of resource hours devoted to drug interdiction decreased from 20.8 % to 9.5 %.
          However, during that period, the Coast Guard used larger cutters working offshore


Page 12                 FY 2003 Mission Performance United States Coast Guard
in conjunction with surveillance aircraft and armed helicopters, which represent
the major share of the Coast Guard’s capital and ﬂeet operating cost investments.

Measuring Results and Readiness
The Coast Guard does not have the output and outcome measures and goals
needed to gauge the results of some of its major missions or the readiness of all
Coast Guard units. For example, the Coast Guard has not deﬁned the measures
and performance targets for PWCS, even though it reported over 245,000 PWCS
resource hours in FY 2003, which was about a third of the total annual mission
resource hours available. Further, the demands of homeland security missions
now require all Coast Guard operational units to achieve and sustain a high state
of operational readiness, underscoring the need for expanded status reporting.
However, the Coast Guard’s readiness reporting is limited only to gauging the
military readiness of select cutters, patrol boats, and port security units performing
the defense mission.

The readiness of these select units to perform other missions may not be
accurately reﬂected in readiness reports because the criteria for evaluating
readiness may not include the specialized equipment or skills needed to perform
the other missions. Moreover, the readiness of other Coast Guard units is not
indicated. The Coast Guard’s Readiness Management System initiative seeks
to address this gap, providing decision-makers with the information needed.
However, deﬁning speciﬁc, useful criteria and standards for extending military
readiness reporting to other Coast Guard missions and additional operational
units will be a challenge given their multi-mission nature. The Coast Guard
relies on its operational units to respond capably as needed to perform any of its
major missions, including the added jobs of protecting the homeland. A system
is needed to gauge the results of its major missions and the readiness of all Coast
Guard units.

Further, the need for a better system for measuring Coast Guard’s mission
performance is shown in the program ratings assigned to the missions that
have been subject to the Ofﬁce of Management and Budget (OMB)’s program
assessment rating process. To enhance the practical use of performance
information, OMB, in collaboration with other federal agencies, has developed a




FY 2003 Mission Performance United States Coast Guard                         Page 13
               process for assigning performance ratings to programs - the Program Assessment
               Rating Tool (PART) - and criteria for assessing program performance and
               management. So far, OMB has rated ﬁve Coast Guard mission programs. Three
               mission programs scored a “Results Not Demonstrated.” As shown on Table


                                          Table 1 - PART Results
                      Mission                                   Rating
                      Aids to Navigation                        Results Not Demonstrated
                      Living Marine Resources                   Moderately Effective
                      Drug Interdiction                         Results Not Demonstrated
                      Marine Environmental
                                                                Moderately Effective
                      Protection
                      Search & Rescue                           Results Not Demonstrated

     Barrier 2: Growing Workload and Continued High Operating Tempo

               The continued growth in homeland security demands, especially PWCS
               operations, is a barrier to the Coast Guard’s sustaining or improving performance
               in its other missions. Although additional total operating resources are budgeted
               for the Coast Guard, the growing security demands will be a barrier to restoring
               the level of effort devoted to non-homeland security missions to their pre-
               September 11th levels. The Coast Guard will continue to need to “surge”
               operations in response to elevated threat levels, meet growing security demands,
               accomplish MTSA implementation tasks, and support other operations such as the
               war in Iraq. Therefore, while the Coast Guard has budgeted for a reduced effort
               in homeland security missions, PWCS will continue to require current levels of
               personnel, if not more, especially with the new security requirements of MTSA.

               Growing Homeland Security Workload
               The MTSA requires the Coast Guard to undertake a variety of new homeland
               security initiatives, in addition to its current security role commitments. Under
               MTSA, the Coast Guard is required to conduct risk assessments of all vessels and
               facilities on or near the water, develop national and area maritime transportation




Page 14                      FY 2003 Mission Performance United States Coast Guard
                            security plans, approve port, facility, and vessel security plans, and implement
                            a Sea Marshal program8. In addition, all commercial vessels are to be equipped
                            with an automatic identiﬁcation system allowing the Coast Guard to track vessels
                            in U.S. waters.

                            The Coast Guard estimated a need for 600 additional active duty and civilian
                            personnel to implement and enforce MTSA. The timing of the passage of
                            the MTSA did not allow the Coast Guard to budget for this increase in its
                            FY 2004 budget request. While the Coast Guard’s FY 2005 budget request
                            includes $101 million for MTSA implementation, the Coast Guard is recalling
                            450 reservists to active duty as a stopgap measure.

                            However, many reserve personnel do not have the requisite training, experience,
                            and qualiﬁcations to perform their MTSA duties and responsibilities. While Coast
                            Guard ofﬁcials said that reservists could qualify as inspectors after completing
                            online correspondence courses, an unspeciﬁed period of on-the-job training, and
                            some formalized classroom training, the Coast Guard has not speciﬁed where
                            the reservists will be assigned or how long it would take for them to obtain
                            the required training, experience, and certiﬁcation needed to enforce MTSA
                            requirements properly.

                            Personnel readiness issues, such as the lack of experienced personnel, the
                            decreasing average experience levels at stations reliant on senior personnel to
                            coach and train junior personnel on the job, and the inadequate training at Coast
                            Guard ﬁeld units, have been longstanding problems as reported by the DOT OIG.9

                            Continued High Operating Tempo
                            Growing workload demands on the Coast Guard are likely to continue and its high
                            operating tempo is also likely to continue. The Coast Guard reports that, from
                            FY 2001 through FY 2003, the total level of effort measured in resource hours
                            has increased almost 20 %, while homeland security mission hours increased
                            82 %. Resource hours devoted to homeland security missions have increased,
                            primarily due to the PWCS mission, from 58,448 hours in FY 2001 to 245,669
                            hours in FY 2003, or a 320 % increase. Furthermore, the Coast Guard’s FY 2004


8
  Under the Sea Marshal program the Coast Guard identiﬁes, boards, and escorts high-risk vessels to prevent unauthorized persons from
taking control of the vessel while in U.S. waters.
9
  DOT OIG Report: Use of Fiscal Year 2002 Funds to Improve the Operational Readiness of Small Boat Stations and Command Centers
(Revised), report number MH-2003-028, April, 15, 2003; Audit of the Small Boat Station Search and Rescue Program, report number MH-
2001-094, September 14, 2001.



                           FY 2003 Mission Performance United States Coast Guard                                            Page 15
                     projections indicate a continuation of this trend. The trend in high operating
                     tempo raises concern about the capacity of the Coast Guard to meet the “surge”
                     demands of a major crisis that would need a sustained response.

                     Continued high operating tempo will wear down Coast Guard assets faster than
                     previously planned, requiring additional maintenance, repair, or replacement of
                     engines and other components that wear with use. As the average age of Coast
                     Guard surface and aviation ﬂeets continues to grow, more maintenance due to
                     stress and fatigue is required. Consequently, the surface and aviation ﬂeet will
                     become less efﬁcient. The effects of high operating tempo become even more
                     apparent during the surge periods of elevated threat levels.

          Barrier 3: Deteriorating Fleet Readiness

                     Given its aging surface and aviation ﬂeet, the Coast Guard’s ability to balance its
                     missions and maintain its performance is a major challenge. The Coast Guard
                     reported that mission sustainment is at risk due to cutters and aircraft that are
                     aging, technologically obsolete, and require replacement and modernization.
                     Currently, the Coast Guard is experiencing serious cracking or breaches in
                     the hulls of its 110 foot cutters and engine power losses on its HH-65 Dolphin
                     helicopters. These operating restrictions adversely affect the Coast Guard’s
                     mission readiness.

                     The Coast Guard’s cutter ﬂeet is deteriorating. Since FY 2003, unscheduled
                     maintenance increased 41%. For example, according to Coast Guard maintenance
                     records, 20 of the 49 110 foot cutters have been characterized as being in serious
                     condition requiring signiﬁcant hull sustainment, such as a recently renovated
                     cutter that needed about 30 % of its hull replaced. As a result of the deteriorating
                     condition of the cutter ﬂeet, the Coast Guard is accelerating efforts to develop the
                     Fast Response Cutters and Offshore Patrol Cutters program under its Integrated
                     Deepwater System acquisition project.

                     The Coast Guard’s aviation ﬂeet is deteriorating as well. The ﬂeet of 95 HH-65
                     Dolphin helicopters is experiencing increased in-ﬂight engine power losses. By
                     mid-FY 2004, the HH-65 ﬂeet reported 70 in-ﬂight power loss mishaps, up from
                     the 32 such mishaps during FY 2003, and the 32 mishaps reported between FYs
                     2000 and 2002. As a result, the Coast Guard placed operational restrictions
                     on these aircraft to mitigate the safety risks associated with the in-ﬂight power
                     losses. These operational restrictions have further diminished the operational
                     capability of the HH-65 ﬂeet and reduced the Coast Guard’s mission performance



Page 16                            FY 2003 Mission Performance United States Coast Guard
capability. For example, the restrictions have reduced the HH-65’s ability to
deploy from cutters, limiting the aircraft’s ability to conduct missions such as
search and rescue or the law enforcement operations that are usually conducted
from Coast Guard cutters. The Coast Guard recently accelerated its acquisition
of the Multi-Mission Cutter Helicopter under development by the Integrated
Deepwater System acquisition project and began replacing the engines of its HH-
65 helicopter ﬂeet.

To deal with its deteriorating materiel readiness issues, the Coast Guard is
relying on the Integrated Deepwater System to replace or modernize its ﬂeet of
aging, technologically obsolete cutters, aircraft, and support systems with an
integrated, interoperable network centric system capable of supporting its mission
needs. However, the Coast Guard has yet to redeﬁne fully its mission needs to
reﬂect changed requirements and priorities since September 11th or restructure
the Integrated Deepwater System acquisition project accordingly. The current
Deepwater system is based on a 1998 baseline. The Coast Guard decided that it
needs to update that baseline to reﬂect post-September 11th missions. The Coast
Guard proposed the addition of several functional capabilities to the Deepwater
system to reﬂect its maritime homeland security duties. Speciﬁcally, on May 25,
2004, the Coast Guard proposed a revised missions need statement for validation
by the department’s Joint Requirements Council (JRC). The proposal addresses
the Coast Guard’s changed requirements and priorities since September 11th.

However, the Coast Guard has yet to provide the information and analysis
requested by the JRC at the May 25 meeting to support the proposal. Until that
information is provided, the JRC cannot approve it. With validation and approval
of the updated Integrated Deepwater System requirements by the JRC, the Coast
Guard would then seek approval from the department’s Investment Review
Board of a revised acquisition program baseline. Scheduling for such Investment
Review Board deliberations has not been set. However, the development of
the department’s FY 2006 budget request and Future Years Homeland Security
Plan for 2007-2011 is under way. The FY 2006 budget request is necessarily
based on the Coast Guard’s currently approved program. However, the resource
level budgeted in FY 2006 for the Integrated Deepwater System may not match
the needs of the Coast Guard’s updated program requirements. Therefore, to
ensure that the Coast Guard’s changed requirements and priorities are addressed
in formulation of the FY 2006 budget request, we are making the following
recommendations.




FY 2003 Mission Performance United States Coast Guard                      Page 17
          Recommendation 1: We recommend that the Commandant of the Coast Guard
          expedite responses to departmental inquiries and deliberations on the Coast
          Guard’s proposal to update requirements for the Integrated Deepwater System
          and revise the acquisition program baseline to ensure that those needs are
          addressed in the formulation of the FY 2006 budget request.

          Recommendation 2: We recommend that the Under Secretary for Management
          expedite the department’s review of the Coast Guard’s proposal to update its
          requirements for the Integrated Deepwater System and revise the acquisition
          program baseline to ensure that those needs are addressed in the formulation of
          the FY 2006 budget request.

          Recommendation 3: We recommend that the Commandant of the Coast
          Guard ensure that the Coast Guard’s FY 2006 budget request and Future Years
          Homeland Security Plan for 2007-2011 are revised to reﬂect the approved
          changed requirements and priorities of the Integrated Deepwater System
          acquisition project.


          On July 29, 2004, a copy of our draft report was provided to the Coast Guard
          and DHS Management Directorate for comment. We requested that both the
          Coast Guard and Management Directorate respond to the draft report within 30
          days. As of September 30, 2004, we have not received comments from either.
          Therefore, we consider our recommendations unresolved.




Page 18                FY 2003 Mission Performance United States Coast Guard
                                             Appendix A
                                             Coast Guard Missions



Homeland Security Missions:

           Ports, Waterways and Coastal Security (PWCS): The Coast Guard patrols
           harbors, waterways, and the coasts to provide a deterrent presence and rapid
           response capability. The Coast Guard conducts these harbor patrols, along with
           vulnerability assessments, intelligence gathering and analysis, in an effort to
           prevent maritime terrorist attacks, reduce America’s vulnerability to terrorism,
           and minimize the damage from attacks that could occur. The Coast Guard’s
           responsibilities for coastal security are shared and coordinated with the U.S.
           Navy and responsibilities for port security are shared and coordinated with U.S.
           Customs and Border Protection (CBP).

           Drug Interdiction: The Coast Guard deploys to and patrols high drug trafﬁcking
           areas, gathers intelligence, intercepts and boards suspect vessels, and apprehends
           smugglers at sea. The Coast Guard conducts these counter drug patrols and
           boardings in an effort to stem the importation of illegal drugs. The Coast Guard’s
           responsibilities for drug interdiction are shared by seven federal departments
           under the auspices of the Ofﬁce of National Drug Control Policy. The Coast
           Guard’s counter drug operations are largely conducted in tandem with CBP and
           the Navy.

           Migrant Interdiction: The Coast Guard deploys to and patrols areas prone to
           illegal immigration, including areas between the Bahamas, Cuba, Haiti and the
           U.S. The Coast Guard responds to intelligence on voyages along the east and
           west coasts and throughout U.S. territories in the Paciﬁc in an effort to curtail
           illegal immigration. The Coast Guard shares migrant interdiction responsibility
           with other DHS components.

           Other Law Enforcement: The Coast Guard is a maritime police force, the only
           military service with law enforcement authority, and speciﬁcally charged with
           enforcing the provisions of federal laws and treaties. “Other law enforcement”
           pertains to enforcement of laws, regulations, or international agreements unrelated
           to domestic ﬁsheries, marine sanctuaries, drug trafﬁcking, or illegal immigration.
           This includes maritime activities in support of other federal, state, and local law
           enforcement agencies. Examples of other laws the Coast Guard enforces include
           provisions against trespassing, intoxicated boaters, vandalism, theft of assets, and
           destruction of maritime property. The Coast Guard recently began reporting its
           mission activities for protecting the EEZ from foreign ﬁsherman under “other law
           enforcement” as a homeland security mission.




          FY 2003 Mission Performance United States Coast Guard                        Page 19
Appendix A
Coast Guard Missions



                        Defense Readiness: The Coast Guard deploys with U.S. Navy Fleet and
                       participates with the Department of Defense (DOD) military and humanitarian
                       operations around the globe. The Coast Guard deploys cutters and boats in and
                       around military bases, homeports and harbors, including combat and combat
                       support zones, to protect naval forces and DOD supply operations.

          Non-Homeland Security Missions:

                       Marine Safety: The Coast Guard marine safety efforts pertain to three separate
                       segments: maritime worker fatality and injury prevention; passenger vessel
                       safety; and recreational boating fatality and injury prevention. The Coast Guard
                       safety programs aim to ensure the safety of crewmembers and passengers by
                       preventing accidents from happening, responding to accidents when they occur,
                       and investigating accidents to prevent them from happening again.

                       Search and Rescue: The Coast Guard stands watch, monitoring radios
                       for distress calls, coordinates efforts to ﬁnd lost or endangered mariners,
                       and evacuates threatened or injured mariners. The Coast Guard is the sole
                       government agency that has expertise, assets, and around-the-clock, on-call
                       readiness to conduct search and rescue missions in all areas of the maritime
                       environment. Annually, the Coast Guard responds to approximately 40,000 calls
                       for assistance.

                       Aids to Navigation: The aids to navigation program consists of long range and
                       short range aids. Long range devices, or radio aids, provide continuous, accurate
                       all-weather positioning capability to military and civilian maritime and aviation
                       transportation users, in order to prevent disasters, collisions, and wrecks of vessels
                       and aircraft. Short range aids to navigation are combinations of visual, sound,
                       and radar enhanced signals placed on ﬂoating and ﬁxed stations in the maritime
                       environment. These are lighthouses, ranges, beacons, and buoys that mariners
                       use for positioning during the coastal, harbor approach, and restricted phases
                       of navigation. The Coast Guard maintains this extensive system and monitors
                       marine trafﬁc through trafﬁc service centers.

                       Living Marine Resources: The Coast Guard is the only government agency
                       with maritime authority and infrastructure to provide federal law enforcement
                       presence over the U.S. EEZ. The U.S. EEZ is the largest in the world, covering
                       3.4 million square miles of ocean and 95,000 miles of coastline. Commercial
                       and recreational ﬁsheries contribute approximately $50 billion annually to the
                       U.S. economy. Responsible management of ocean resources is critical as the



Page 20                              FY 2003 Mission Performance United States Coast Guard
                                   Appendix A
                                   Coast Guard Missions



world’s population continues to grow, demanding increased food sources. The
Coast Guard recently changed its reporting and budgeting policy and procedures
for protecting the EEZ from foreign ﬁsherman from “living marine resources” to
“other law enforcement.”

Marine Environmental Protection: The Coast Guard conducts outreach and
inspections, often in tandem with marine safety operations, to prevent marine
pollution. The Coast Guard’s preparedness and response program seeks to
minimize the impact of discharges of oil and releases of hazardous materials
into the maritime environment. The Coast Guard shares responsibility with the
Environmental Protection Agency (EPA) for spills of national signiﬁcance that
overwhelm local response capabilities. The EPA and Coast Guard operate the
national incident command system, which responds to the release of hazardous
materials.

Ice Operations: The Coast Guard’s heavy icebreaking capability facilitates year
round maritime commerce. Marine trafﬁc is sustained only with the Coast Guard
icebreaking services, when ice forms in critical waterways. The Coast Guard
also conducts polar operations to facilitate the movement of critical goods and
personnel in support of scientiﬁc and national security activity.




FY 2003 Mission Performance United States Coast Guard                    Page 21
Appendix B
Purpose, Scope, and Methodology



Purpose, Scope, and Methodology
                               This report presents the results of our audit of the Coast Guard’s mission
                               performance for FY 2003. This report is the ﬁrst of a series of OIG reports in
                               response to the Homeland Security Act of 2002 requirement that we conduct an
                               annual review assessing the Coast Guard’s mission performance. Our objectives
                               for this review were to determine how the level of effort directed toward each
                               mission has changed since September 11, 2001; to identify the consequences
                               resulting from the change in mission emphasis; and to identify barriers to
                               sustaining or improving the performance of these missions in future periods. To
                               accomplish these objectives, we analyzed the Coast Guard’s abstract of operations
                               database and other mission performance data. The audit covered the Coast
                               Guard’s level of effort and performance results for the period October 1, 2000,
                               through September 30, 2003.

                               Since the GAO recently addressed how well the Coast Guard performed its
                               missions in FY 2003 and whether it restored its non-homeland security missions
                               to their pre-September 11th levels, we focused our work on the barriers to
                               sustained or improved mission performance in FY 2004 and beyond. We
                               coordinated our review with the GAO.

                               We identiﬁed barriers through our recent and ongoing audits, including the audit
                               of the Re-Engining of the HH-65 Helicopter.10 We also reviewed DOT OIG
                               reports and OMB’s program assessment rating tool and performance ratings for
                               Coast Guard mission programs.

                               We met with ofﬁcials and obtained data from the Coast Guard Headquarters in
                               Washington D.C., including the Program Executive Ofﬁce for the Integrated
                               Deepwater System. We also met with, observed, or obtained data from the
                               following Coast Guard Commands and operating units:

                                        Coast Guard District Headquarters: District 1 in Boston MA; District 5 in
                                        Portsmouth, VA; District 7 in Miami, FL; and District 13 in Seattle, WA.

                                        Maintenance and Logistics Command Atlantic in Norfolk, VA.

                                        Groups Commands and Small Boat Stations in Boston, MA; Miami FL;
                                        Key West FL; and Seattle WA.


10
     See DHS OIG audit report, Re-Engining of the HH-65 Helicopter, report number OIG-04-050, for more information.



Page 22                                          FY 2003 Mission Performance United States Coast Guard
                                   Appendix B
                                   Purpose, Scope, and Methodology



         Air Stations in Cape Cod, MA; Opa Locka, FL; and Port Angeles WA.

         Marine Safety Ofﬁces in Boston, MA; Hampton Roads, VA; Miami, FL;
         and Seattle, WA.

         Tactical Law Enforcement Team (TACLET) in Opa Locka, FL.

We reviewed decision memoranda for the Department’s Investment Review
Board and Joint Requirements Council to ascertain the status and plans for the
Coast Guard’s Integrated Deepwater System major acquisition program. We also
discussed our ﬁndings and recommendations with the Coast Guard’s Program
Executive Ofﬁce for the Integrated Deepwater System and the department’s
Ofﬁce of Program Analysis and Evaluation.

We conducted our audit between April 2003 and February 2004 under the
authority of the Inspector General Act of 1978, as amended, and according to
generally accepted government auditing standards.

Throughout the audit, we worked closely with Coast Guard ofﬁcials. We
appreciate the cooperation and courtesies extended to the audit team by these
ofﬁcials. Major OIG contributors to the audit are identiﬁed in Appendix D. The
principal OIG points of contact for the audit are J. Richard Berman, Assistant
Inspector General for Audits, at (202) 254-4100 and Edward M. Stulginsky,
Deputy Assistant Inspector General for Program Audits, at (202) 254-0037.




FY 2003 Mission Performance United States Coast Guard                     Page 23
Appendix C
Major Contributors to this Report



                      The following individuals contributed signiﬁcantly to this report:

                      Mr. Phillip Maulden, Project Manager
                      Mr. Sam Bellino, Audit Manager
                      Mr. David Engelen, Management Analyst
                      Mr. Paul Streit, Management Analyst




Page 24                             FY 2003 Mission Performance United States Coast Guard
                                                        Appendix D
                                                        Report Distribution



Department of Homeland Security

Secretary
Deputy Secretary
Undersecretary for Management
General Counsel
Chief of Staff
DHS Ofﬁce of Program Analysis & Evaluation
DHS OIG Liaison
DHS Public Affairs

U.S. Coast Guard

Commandant
Chief of Staff
Audit Liaison

Ofﬁce of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




FY 2003 Mission Performance United States Coast Guard                         Page 25
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the OIG
Hotline at 1-800-323-8603; write to Department of Homeland Security, Washington, DC
20528, Attn: Ofﬁce of Inspector General, Investigations Division – Hotline. The OIG
seeks to protect the identity of each writer and caller.
